           U.S.Department of
                                                        Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:    INFORMATION: Audit Announcement - Department                    Date:    March 4, 2003
            of Transportation Fiscal Year 2003 Financial Statements
  From:     John L. Meche                                                   Reply
                                                                          To: Attn
            Assistant Inspector General for Financial                          Of:
              and Information Technology Audits
    To:     See Distribution

           The Office of Inspector General (OIG) is initiating its audit of the Department of
           Transportation (DOT) Fiscal Year (FY) 2003 Financial Statements.

           Our audit objectives are to determine whether: (1) principal DOT financial
           statements and accompanying notes are presented fairly, in all material respects, in
           conformity with U.S. generally accepted accounting principles; (2) DOT has
           adequate internal controls over financial reporting, including safeguarding assets;
           (3) DOT has complied with laws and regulations that could have a direct and
           material effect on the DOT financial statements or that have been specified by the
           Office of Management and Budget, including the Federal Financial Management
           Improvement Act; (4) financial information in the Management Discussion and
           Analysis is materially consistent with the information in the principal DOT financial
           statements; (5) internal controls ensured the existence and completeness of reported
           data supporting performance measures; and (6) supplementary and stewardship
           information is consistent with management representations and the DOT financial
           statements.

           In addition to the FY 2003 DOT Consolidated Financial Statements, component
           statements for the Federal Aviation Administration, Highway Trust Fund, and
           Transportation Security Administration (TSA) will be audited by independent
           external auditors subject to OIG oversight. We also intend to contract out the work
           on the component statements for the U.S. Coast Guard. All other work will be
           performed by OIG staff.

           The Department is advancing the due dates for audit opinions on the FY 2003
           financial statements to early January instead of the Office of Management and
           Budget (OMB) date of January 30, 2004. To meet this earlier date, special
                                                                                 2

management attention will be needed to ensure that financial statements are
accurately prepared on time.

Under the requirements of the Homeland Security Act of 2002, the U.S. Coast
Guard and TSA transitioned to the Department of Homeland Security (DHS) on
March 1, 2003. Under OMB guidance, the FY 2003 DOT Consolidated Financial
Statements will include Coast Guard and TSA activities through February 28, 2003,
and the FY 2003 DHS Financial Statements will include all Coast Guard and TSA
assets and liabilities as of September 30, 2003. Although OMB will issue additional
implementing guidance, some audit work will be performed on the Coast Guard and
TSA financial activities and balances as of February 28, 2003.


Distribution:
   Chief Financial Officer, Department of Transportation
   Chief Financial Officer, United States Coast Guard
   Chief Financial Officer, Federal Aviation Administration
   Chief Financial Officer, Federal Highway Administration
   Chief Financial Officer, Federal Railroad Administration
   Chief Financial Officer, National Highway Traffic Safety Administration
   Chief Financial Officer, Federal Transit Administration
   Chief Financial Officer, Maritime Administration
   Chief Financial Officer, Research and Special Programs Administration
   Chief Financial Officer, Federal Motor Carrier Safety Administration
   Chief Financial Officer, Transportation Security Administration
   Director, Bureau of Transportation Statistics
   Director of Finance and Administration, St. Lawrence Seaway Development
     Corporation


                                        #
